HHS/OIG, Audit -"Review of Nursing Facility Staffing Requirements at Woodland Center for Nursing,"(A-03-03-00217)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Nursing Facility Staffing Requirements at Woodland Center for Nursing," (A-03-03-00217)
February 25, 2004
Complete
Text of Report is available in PDF format (420 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Woodland Center was in compliance with Federal and State staffing
laws and regulations for nursing homes.   Based on our review of 75 direct care employees, Woodland Center complied
with Federal staffing laws and regulations, but did not comply with State staffing requirements.  Woodland Center
did not comply with State background check requirements for 13 direct care employees and did not meet the State required
staffing levels for approximately 17 percent of the workdays reviewed.  We recommended that Woodland Center review
and strengthen its internal controls to assure that it: (1) prohibits direct care employees from working directly with
residents if background checks are not received within the required timeframes, and (2) schedules direct care employees
to ensure that each day there is a registered nurse on duty for 24 hours and enough nursing staff on duty to provide 2.7
hours of direct care per resident per day.